<html>
<title> - PROPOSED WESTERN HEMISPHERE PASSPORT RULES: IMPACT ON TRADE AND TOURISM</title>
<body><pre>[Senate Hearing 109-275]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-275
 
PROPOSED WESTERN HEMISPHERE PASSPORT RULES: IMPACT ON TRADE AND TOURISM

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             LAREDO, TEXAS

                               __________

                            DECEMBER 2, 2005

                               __________

                          Serial No. J-109-55

                               __________

         Printed for the use of the Committee on the Judiciary




                    U.S. GOVERNMENT PRINTING OFFICE
25-936                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                 Reed O'Connor, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
    prepared statement...........................................    31
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    41
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    53
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York, prepared statement.......................................    66

                               WITNESSES

Dezenski, Elaine, Acting Assistant Secretary for Policy, Office 
  of Policy, Planning and International Affairs, Department of 
  Homeland Security, Washington, D.C.............................     7
Flores, Hon. Elizabeth G., Mayor, City of Laredo, Texas..........     3
Moss, Frank E., Deputy Assistant Secretary for Passport Services, 
  Bureau of Consular Affairs, Washington, D.C....................    10
Nixon, Dennis E., Chairman and Chief Executive Officer, 
  International Bank of Commerce, Laredo, Texas..................    21
Sepulveda, Pete, Jr., Chairman, Border Trade Alliance, Phoenix, 
  Arizona........................................................    17
Trevino, Guillermo, Chairman, Board of Directors of the Laredo 
  Chamber of Commerce, Laredo, Texas.............................    19

                       SUBMISSIONS FOR THE RECORD

Dezenski, Elaine, Acting Assistant Secretary for Policy, Office 
  of Policy, Planning and International Affairs, Department of 
  Homeland Security, Washington, D.C., prepared statement........    33
Kephart, Janice L., former Counsel, National Commission on 
  Terrorist Attacks, Laredo, Texas, prepared statement...........    43
Moss, Frank E., Deputy Assistant Secretary for Passport Services, 
  Bureau of Consular Affairs, Washington, D.C., prepared 
  statement......................................................    56
Nixon, Dennis E., Chairman and Chief Executive Officer, 
  International Bank of Commerce, Laredo, Texas, prepared 
  statement......................................................    62
Sepulveda, Pete, Jr., Chairman, Border Trade Alliance, Phoenix, 
  Arizona, prepared statement....................................    70
Trevino, Guillermo, Chairman, Board of Directors of the Laredo 
  Chamber of Commerce, Laredo, Texas, prepared statement.........    74
Webster, Rick, Vice President, Government Affairs, Travel 
  Industry Association of America, Washington, D.C., letter and 
  attachment.....................................................    79


PROPOSED WESTERN HEMISPHERE PASSPORT RULES: IMPACT ON TRADE AND TOURISM

                              ----------                              


                        FRIDAY, DECEMBER 2, 2005

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
            Citizenship, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:36 p.m. in 
Room 111, Texas A&M International University, Western 
Hemisphere Trade Center, Laredo, Texas, Hon. John Cornyn, 
Chairman of the Subcommittee, presiding.
    Present: Senator Cornyn.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. Good afternoon and welcome. The purpose of 
today's hearing is to review the Western Hemisphere Travel 
Document Initiative and how it will affect trade and tourism. 
Currently, U.S. citizens and some citizens of other countries 
in the Western Hemisphere are not required to present a 
passport to enter the United States when traveling from certain 
Western Hemisphere countries.
    The 9/11 Commission, recognizing the obvious vulnerability 
of this policy, recommended in its final report that Americans 
should not be exempt from carrying biometric passports when 
they enter the United States, nor, they said, should Canadians 
or Mexicans.
    In response, the U.S. Congress passed the Intelligence 
Reform and Terrorism Prevention Act of 2004. That law mandates 
that the Secretary of Homeland Security, in consultation with 
the Secretary of State, develop and implement a plan to require 
U.S. citizens and foreign nationals to present a passport or 
other secure document when entering the United States. The law 
requires that the plan be in place by January 1, 2008.
    The Departments of State and Homeland Security recently 
published an Advanced Notice of Proposed Rulemaking, the first 
formal statement by the administration on how it plans to 
implement the new passport requirements. That notice indicates 
that the agencies will implement the Western Hemisphere 
initiative in two stages.
    First, the agencies will apply the passport requirement to 
all air and sea travelers by December 31, 2006. A year later, 
those requirements will go into place for land-border crossers. 
Phasing in these requirements makes sense. The land-border 
crossing environment is very different from an air or sea port 
of entry, and while we all agree that we have a responsibility 
to protect our borders and to know who crosses through our 
ports, the process needs to be done in a manner that is least 
disruptive to legitimate travelers, businesses, and tourism.
    There is no question that this initiative will have an 
impact. For individuals, a passport costs approximately $100, 
plus an additional $60 if a person wants expedited processing. 
For a family of four, the cost to cross the border could be 
close to $400.
    One need only look at the economy of Laredo to understand 
how a small change in the travel document requirement could 
have a significant negative impact on the economy. Around $80 
billion in goods, 1.6 million loaded trucks, and nearly 7 
million other vehicles carrying millions of people flowed 
across Laredo border in 2003, the last year for which we have 
complete statistics.
    A study by the director of the Texas Center for Border 
Economic and Enterprise Development at Texas A&M International 
University, where we are today, found that a 1 percent decrease 
in border crossings would cost Laredo $19 million in additional 
sales and increase unemployment by 7.2 percent.
    Understandably, the business communities along the border 
are concerned, and I am concerned. In 2004, the Perryman Group, 
which conducted an analysis at the request of the McAllen 
Chamber of Commerce, found that the proposed passport 
initiative will cost 19,000 jobs in the border region and 
215,000-plus jobs in the state of Texas. That same group said 
the initiative would cause the loss of approximately $10 
billion in personal income and the loss of approximately $16 
billion in gross product for the state of Texas.
    Many of the same economic concerns were raised when the US-
VISIT program was implemented in 2004. Thanks to the input of 
leaders here in this room, US-VISIT has since processed over 44 
million travelers and has led to the identification of over 900 
criminals and the denial of 12,000 visas, all the while not 
unnecessarily delaying people at ports of entry. But, we know 
the greatest challenges for the US-VISIT program are yet to 
come.
    Nevertheless, US-VISIT has, so far at least, demonstrated 
that measured, careful implementation, which includes 
consultation with and guidance from local business communities 
can improve security while minimizing the disruption of cross-
border travel.
    The questions we wish to answer today are what documents 
these agencies will accept in lieu of a passport and whether 
the agencies can meet the proposed deadline without delaying 
cross-border traffic. In November, the Department of State 
announced that it is considering SENTRI, NEXUS, and FAST 
program cards as acceptable alternatives. We will hear some 
testimony about what exactly those cards are. These documents 
are currently used, though, by frequent travelers, registered 
frequent travelers.
    The Department also announced that it anticipates the 
border-crossing card or laser visa will also be an acceptable 
alternative. I think that is good news and movement at least in 
the right direction.
    I understand that the Departments of State and Homeland 
Security are evaluating other options, including creation of a 
new travel document that would be issued to U.S. citizens but 
which would also cost less than a passport.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    I look forward to hearing from our government witnesses 
today about the progress they have been making in identifying 
alternatives to the passport. Before we swear in the witnesses, 
though, I want to recognize Mayor Betty Flores. Elected in 
1998, the first woman to hold that office in this city's 240-
year history, Mayor Flores has established effective 
relationships with state and Federal officials on a broad range 
of issues, including border commerce and security.
    Mayor Flores, I thank you for being here today and for your 
service and work on the important issues that we have discussed 
already and that we will discuss during the remainder of this 
hearing, and I would like to turn the floor over to you for any 
welcoming remarks that you may care to make.

 STATEMENT OF HON. ELIZABETH G. FLORES, MAYOR, CITY OF LAREDO, 
                             TEXAS

    Mayor Flores. Thank you very much, Senator. It is such an 
honor for us in Laredo to have you here and to have this 
hearing here, because I believe that--and you will find out-- 
that during the course of the afternoon, you are going to hear 
some very specific recommendations, and I think obviously these 
recommendations are not only going to protect what we have 
built for so many years here, but also are going to encourage 
what Congress has in mind, and that is safety and security.
    So thank you very much for being here. I want to thank the 
staff Committee at the Senate Judiciary Committee, Subcommittee 
on Immigration, Border Security and Citizenship. My name is 
Elizabeth G. Flores, and I am the mayor of this great city of 
Laredo. Thank you for bringing this Subcommittee to Laredo, to 
listen to our community give comments on the Western Hemisphere 
Travel Initiative.
    The city of Laredo is at the center of the trade routes 
connecting Canada, the United States and Mexico, and I think 
you almost gave my speech in your opening remarks, Senator 
Cornyn. The port of Laredo is the largest inland port on the 
U.S.-Mexico border, and it is located mile marker 1 of 
Interstate Highway 35, also known as the NAFTA Highway, mile 
marker 1 of the I-69 corridor, and mile marker 1 of the new 
Ports-to-Plain Corridor.
    The city of Laredo built and owns the four international 
bridges that exist at our port. These consist of its two 
passenger vehicle bridges and its two commercial bridges which 
handle more than 40 percent of all overland trade between the 
United States and Mexico. On a daily basis, as you have said, 
there are more than 9,000 commercial crossings at our two 
commercial bridges and over 10,000 trucks driving through the 
streets of Laredo every day.
    Notably, Laredo is recognized as the fourth largest Customs 
district in the world. With cross-border shipments totaling 
over $90 billion recorded in 2004, Laredo is topped only on 
this list by the ports of Los Angeles, Long Beach, New York 
City, and Detroit. As such, Laredo's economy continues to be 
strongly tied to border trade and transportation and is 
directly impacted by the continuing ability to move border 
trade expeditiously.
    The success of trade is due to the relationship the 
citizens of these communities have and the communication that 
takes place on a very daily basis. Citizens in border 
communities cross to visit family or friends, to attend 
schools, or visit shopping centers. Even our health community 
is greatly affected by the cross-border traffic.
    You see, our MSA is not totally in the USA. The general 
concept of a metropolitan statistical area, an MSA, is one of a 
large population nucleus, together with adjacent communities 
that have a high degree of economic and social integration with 
that nucleus. Texas border communities are like other MSAs in 
Texas. Yet we are penalized, because the street that divides 
our community is not made of asphalt but of water.
    The Rio Grande River, as it is known in Washington, is the 
Rio Grande Avenue to many of our citizens. Nuevo Laredo is like 
your Arlington, Virginia. Every day people cross the Potomac to 
do the very same things we do: visit family, friends, 
restaurants and shopping centers. The difference is that when 
you cross your river, you do not congest the bridge with 
countless regulations.
    Every day, Customs agents process more than 20,000 
pedestrians and more than 30,000 vehicles, both Mexicans and 
U.S. citizens. In April of 2005, the Department of State 
announced that U.S. citizens would be required to use a 
passport as a required travel document when entering the United 
States from Mexico or Canada at the end of 2007, just around 
the corner.
    The city of Laredo is a community that will be great 
affected by this new regulation, as you have well stated. It 
supports efforts to secure our country's borders and safeguard 
against threats to our Nation. It is imperative, however, that 
any and all security initiatives serve the needs of commerce 
and the community affected, that the Western Hemisphere Travel 
Initiative not be a financial burden on the citizens or a 
detriment to our daily routine, that additional personnel for 
the Customs and Border Protection Department be hired for this 
new regulation so that we do not add to congestion on our 
bridges.
    Border communities rely greatly on the economic impact that 
tourists bring to communities like Laredo. Any challenges for 
one citizen group brings about delays for all citizen groups. 
These delay affect the economy of our communities, the state 
and our country. I have seen the proposed land-crossing card 
that the State Department passed and will show us this 
afternoon. Mr. Frank Moss was very nice to receive me in 
Washington just two weeks ago.
    I think this will be the best and most cost-effective 
method that meets the directive of this travel initiative. 
Again, we believe that this card should be a universal card, 
used for everyone and anyone that crosses a Southern or the 
Northern Border. A border identification card could serve many 
purposes. Having one uniform card used by all three NAFTA 
countries can be filled with all types of biometric 
information, a security card that would be uniform, affordable 
and accessible and that would be utilized to allow for 
expeditious processing at the port of entry and operate in a 
similar manner to the frequent traveling cards through the 
dedicated SENTRI lanes.
    The financial institutions in this country--some are 
represented here today-- with their advanced technology can 
even help us add a swipe for crossing fees that are deducted 
each time we cross the bridges, the toll roads, or get into the 
metro or subway, just like I can use my credit or debit card 
anywhere. The challenge for our communities is how we make your 
technology work at our ports.
    It is necessary that the appropriate technology, 
infrastructure, training and marketing be in place at the 
various ports of entry prior to the implementation of any new 
security ID procedure. We ask that you stagger the 
implementation of new processes until such time that those 
improvements are in place so that commerce and travel will not 
be hindered.
    Given that this Federal mandate is time-sensitive, it is 
critical that funding be made available to port owners to 
facilitate such improvements. In Laredo, we understand the 
importance of security and appreciate you listening to us 
today. I cannot stress enough just how much technology and 
personnel are crucial to a successful border port. I have spent 
the last eight years visiting Washington and many years before 
that advocating for the proper infrastructure for Federal 
agencies located here in Laredo.
    The Customs agents do wonders with the few resources given 
to handle the regulations they adhere to today. If we are to 
give the border new regulations, then we need to make sure that 
these regulations come with the proper tools. Nothing is more 
important to our two cities of Laredo and Nuevo Laredo than the 
security of our families and our extended families. We 
understand your reasoning, but have concerns with the 
methodology.
    Creating policy without including the individuals who those 
policies will affect is detrimental to the success of any new 
regulation, as you have well stated. I ask that you include the 
leadership and continue to include the leadership of each 
community and create a process that assures safety and economic 
security to each port of entry. I ask that the Congress, the 
Department of Homeland Security, and the Department of State 
spend the necessary time studying the impact of all new 
regulations affecting our border, the effect it will have on 
the Federal Governmental agencies and the citizens along the 
border of these United States, as well as the rest of the 
country.
    The time it takes to obtain a passport is now extremely 
long. We know that there is a lack of personnel to handle 
today's traffic much less tomorrow's regulations. I ask that 
you do extensive research and continue to examine these 
results, as you are doing here today, closely with the 
communities affected; also that you extend your deadline so 
that together we can guarantee that this new regulation is the 
proper course needed to reach the goal that you have set for 
the Department.
    Cities cannot be asked to handle cross-border traffic, yet 
not given the tools or the Federal resources. Laredo has long 
carried the burden of Federal regulations and has done it 
quietly and proudly, but we need your help now more than ever. 
Responding to the legislative decisions of two very powerful 
countries has put a great deal of weight on the shoulders of 
our citizens for many years. Now in the midst of more serious 
security concerns, we know we will continue to play an even 
more important role in securing our borders. That means that 
when you help our border cities, you help all the people of the 
United States. Your leadership now more than ever will assure a 
future of economic growth and prosperity that surely leaves no 
one behind.
    Thank you so much, Senator.
    Chairman Cornyn. Thank you very much, Mayor, for those 
eloquent remarks and for your leadership on this issue and 
other issues. I look forward to continuing to work with you.
    Mayor Flores. Thank you, sir. And as you requested, we have 
submitted copies 48 hours before the testimony and have extra 
copies of this. Thank you so much. Welcome and have a wonderful 
afternoon. I know you will get an earful.
    Chairman Cornyn. Thank you very much.
    I want to extend my personal thanks to Dr. Keck for his 
hospitality, and it is great to be back here on your campus. I 
was privileged to give the commencement address last year, and 
it was a wonderful, uplifting experience, at least for me. I am 
not sure about the students, but it was for me.
    I also want to recognize Senator Kennedy's staff and other 
staff of the Senate Judiciary Committee who are here. Welcome 
to Texas, and Senator Kennedy does a great job as the Ranking 
Member of the Subcommittee on Immigration, Border Security and 
Citizenship. He is a master legislator, and I learn a lot from 
him every day, but it is important that the staff be here and 
that members of the United States Senate understand exactly 
what life is like here along the border as described by Mayor 
Flores and others.
    That is the most common question I hear from people on the 
border. I was in McAllen and Harlingen on Monday, and the most 
common refrain is, ``Why don't people understand what life is 
like along the border? '' I say, ``Well, they have not been 
here to see it and experience it themselves and talk to people 
and sort of let that seep into their pores and their 
consciousness.'' So, I think it is important we have this 
hearing here today in Laredo, at this wonderful institution, 
and we have representation by the staff on the Senate Judiciary 
Committee and particularly on the Subcommittee.
    We have statements by various members of the Subcommittee, 
including one here from Senator Charles E. Schumer, which will 
be made part of the record without objection.
    I anticipate other senators will likewise have written 
statements. Senator Kennedy has a written statement which will 
be made part of the record without objection.
    I have had a chance to read part of Senator Schumer's 
statement before I came here, and of course, as you might 
imagine, he is concerned about the impact of this initiative, 
not on the Southern Border but on the Canadian border, so this 
has a broad impact across the country in a way that we need to 
evaluate and we need to plan for.
    We are pleased to have a distinguished panel here today 
with us from the Department of Homeland Security and the 
Department of State. I will introduce the panel, and we will 
ask them to give brief opening statements. Now, in order to get 
our job done here today, we are going to limit the opening 
statements, please, to 5 minutes, and then we will have time 
for some questions, and then we will move on to our second 
panel.
    Elaine Dezenski is the Acting Assistant Secretary for 
Policy and Planning within the Directorate of Border and 
Transportation Security of the Department of Homeland Security, 
effective March 1, 2005. Ms. Dezenski is the principal advisor 
to the Border and Transportation Security Directorate 
Undersecretary for Policy Development in the substantive areas 
within that directorate, including immigration and customs 
inspections and investigations, cargo and trade policy, 
transportation security, counter-narcotics and Federal law 
enforcement training. So, I suggest that members of the 
audience who are interested in all those issues please give her 
an earful before she leaves Laredo. I am sure you have already 
taken advantage of that to some extent, but we are glad to have 
you here with us. Thank you for coming.
    Joining Assistant Secretary Dezenski on our first panel is 
Frank Moss, who has already been alluded to. Mr. Moss is the 
Deputy Assistant Secretary for Passport Services, Bureau of 
Consular Affairs for the Department of State. Since 2003, he 
has been responsible for managing the Department's efforts to 
adjudicate and produce passports for more than ten million 
American citizens each year.
    Why don't we begin with you, Ms. Dezenski, and then we will 
turn to Mr. Moss. And, let me remind you, I think the 
microphones are on, but if you will pull it close to you so we 
can all hear you, and again I would ask you to limit your 
statement to 5 minutes. We have a handy light down here to my 
right, your left, to give you some indication when time is up, 
and then that will provide enough opportunity to ask some 
questions by way of follow-up.
    So we will turn to you now. Thank you.

 STATEMENT OF ELAINE DEZENSKI, ACTING ASSISTANT SECRETARY FOR 
 POLICY, OFFICE OF POLICY, PLANNING AND INTERNATIONAL AFFAIRS, 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Ms. Dezenski. Thank you so much, Mr. Chairman. I am 
delighted to be here today in Laredo, together with the State 
Department, to talk to you about the progress that we have made 
on the Western Hemisphere Initiative. I would like to request 
first that my written testimony be submitted for the record.
    Chairman Cornyn. It will be without objection.
    [The prepared statement of Ms. Dezenski appears as a 
submission for the record.]
    Ms. Dezenski. Thank you. I think it is appropriate that we 
are here in Laredo. This is the meeting point or the nexus, if 
you will, of a lot of transportation systems and critical 
infrastructure. Interstate 35, Mexican highways, railroads, 
they all converge here, and when you look at the full picture 
and all of the infrastructure combined, you start to get a 
sense for the economic and security issues that are faced here.
    Chairman Cornyn. Ms. Dezenski, could I ask you to pause for 
a moment. I forgot to do something very important and that is 
to administer the oath to both you and Mr. Moss.
    Ms. Dezenski. Oh, absolutely.
    Chairman Cornyn. So if you will stand and raise your right 
hand.
    [Witnesses sworn.]
    Chairman Cornyn. Excuse the interruption. Please proceed.
    Ms. Dezenski. No problem. That is important.
    Each day, our DHS officers throughout the country inspect 
about 1.1 million people at our collective borders. In fiscal 
year `05, over 84,000 individuals were apprehended trying to 
cross the border with fraudulent documents and claims, and that 
is one of the issues that we are trying to address through this 
Western Hemisphere Initiative.
    The 9/11 Commission report, as was mentioned earlier, 
highlighted travel documents and specifically the ability for 
people to travel without appropriate identification within the 
Western Hemisphere as a security vulnerability, and I think as 
many in the border communities know, there has been a 
longstanding documentation exemption for travel within the 
Western Hemisphere that would include Canada, Mexico, Bermuda, 
and the Caribbean.
    Congress recognized the issue when it passed the Intell 
Reform bill in 2004, and through that mandate, DHS and State 
are required to develop and implement a plan to close this 
loophole. The Western Hemisphere Travel Initiative is designed 
to achieve this by requiring all travelers, including U.S. 
citizens, to carry documents that establish two things: 
identity and citizenship. And that would now be a requirement 
to enter or re-enter the U.S. In essence, we are elevating 
travel within the Western Hemisphere to the same travel 
document standards that we apply to travel to and from other 
parts of the world.
    While the goal of the effort is to strengthen border 
security and facilitate entry of legitimate travelers, we do 
understand the potential implications for industry, business, 
the general public, as well as implications for our neighbors 
to the north and south. Under the Security and Prosperity 
Partnership of North America, or the SPP, we are working 
closely with officials in Canada and Mexico to develop 
standards for lower-cost, secure proof of status and 
nationality documents that would facilitate cross-border 
travel.
    President Bush, Prime Minister Martin, and President Fox 
announced this initiative in March of 2005. They agreed on an 
ambitious security and prosperity agenda that will keep our 
borders closed to terrorists and open to trade. The SPP is 
based on the premise that security and economic prosperity are 
mutually reinforcing. Our commitment to work with both Canada 
and Mexico to develop secure documents will be consistent with 
the Intell Reform mandates and will also take into account the 
realities of our mutual borders.
    In the proposed Western Hemisphere implementation plan, the 
new document requirements are to be rolled out in phases, 
providing as much advance notice as possible. Air and sea 
requirements are proposed for January of 2007, and land 
requirements would be implemented in January of 2008. This 
phased implementation acknowledges that we will have the 
greatest impact at the land borders and thus we do need more 
time.
    We also realize that the U.S. passport is not necessarily 
the optimal solution, particularly at the land border and for 
communities along the Northern and Southern Border areas. The 
new statute specifically mandates that agencies implementing 
this program consider the concerns of border communities. I 
have spoken with hundreds of constituents about their concerns, 
from the impact on the tourism industry to work-related travel, 
and I can tell you that we are working diligently to balance 
convenience and flexibility while closing a security loophole.
    As described in our Advanced Notice of Proposed Rulemaking, 
a variety of travel document options are under consideration, 
in particular for the land borders. First of all, we are 
looking at a State Department-produced alternative called the 
passport card. I know Frank is going to discuss that in further 
detail, so I will just mention that we see it as a convenient 
and affordable alternative to the U.S. passport that would be 
the size of a driver's license and roughly had the price point 
of a passport. We think that is a good option for border 
residents or other frequent travelers across the land border, 
as they would be able to apply for this at more than 7,000 
passport-acceptance facilities around the U.S.
    Second, we are exploring other existing documents, such as 
the SENTRI, NEXUS and FAST program cards. These are programs 
that are already in place and operating for international 
frequent travelers.
    In a study performed by BearingPoint for the State 
Department, it was found that over 48 percent of land-border 
crossings are performed by only 2 percent of travelers. In 
other words, out of 100 border crossings, two people make 48 
out of those 100 crossings. This is exactly the target 
population we want to reach with ``trusted traveler'' type 
programs.
    The program applicable to Laredo and the rest of the 
Southern Border is the Secure Electronic Network for Travelers 
Rapid Inspection or SENTRI program. To date, we have issued 
75,000 SENTRI cards, and we expect to increase SENTRI 
enrollment by 130,000 over the next 2 years. In addition, we 
expect to expand to six additional locations at the Southern 
Border, including dedicated lanes on Bridge II in Laredo, which 
I was able to see today.
    In conclusion, I would like to emphasize that this issue 
stems directly from the critical security concern. If 
implemented correctly, we will not only be able to close that 
loophole but potentially facilitate cross-border traffic as 
well. By creating greater assurance of documents presented by 
individuals, we can focus our resources on other critical 
security concerns such as border-related crime, drug cartels, 
coyotes, and other criminal activity that affects communities 
on both sides of the border.
    The Western Hemisphere Initiative is an important step in 
protecting the protecting the homeland, and I know that we are 
committed and will use our resources to implement this 
initiative by the deadline set forth in law. We look forward to 
working with Congress and with the public to ensure that the 
needs of border communities, as well as our security 
objectives, are addressed by this plan. Thank you.
    Chairman Cornyn. Thank you, Ms. Dezenski. I appreciate that 
very much, and we will have some questions to follow up in a 
moment, but next we will hear from Mr. Frank Moss from the 
Department of State.

  STATEMENT OF FRANK E. MOSS, DEPUTY ASSISTANT SECRETARY FOR 
 PASSPORT SERVICES, BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF 
                    STATE, WASHINGTON, D.C.

    Mr. Moss. Thank you, Chairman Cornyn, and thank you for the 
opportunity to appear here today in Laredo to describe how the 
State Department, working in close partnership with our 
colleagues at the Department of Homeland Security plans to 
strengthen U.S. border security and facilitate international 
travel through the Western Hemisphere Travel Initiative. As Ms. 
Dezenski's comments have focused largely on the why we are 
doing this, I would like to focus more on how we plan to do 
this.
    In the aftermath of the events of 9/11, the Department of 
State conducted a comprehensive review of the adjudication, 
security and issuance of U.S. travel documents, including 
passports. As the 9/11 Commission noted, travel documents today 
are as valuable to terrorists as weapons, and the U.S. passport 
is arguably the most valuable travel and identity document in 
the world. Recognizing this reality, the Department of State 
has implemented a number of steps to improve the security 
features of U.S. passports, to reinforce the underlying 
passport adjudication process, and to rationalize requirements 
for passport use.
    The 9/11 Commission and the Congress, looking at this 
issue, then, of course, passed the legislation establishing the 
Western Hemisphere Travel Initiative which Elaine and I are 
here to discuss how we will implement today.
    As you noted in your opening remarks, Senator, the program 
will be implemented in two phases. The first will be at the end 
of December 31, 2006, and will apply to air and sea travel to 
Canada, Mexico, the Caribbean and really throughout all of 
Western Hemisphere, and then a year later, December 31, 2007, 
it will be implemented for cross land-border travel.
    The Department of State is very much aware the Western 
Hemisphere Travel Initiative will have its greatest impact at 
the land borders. We also recognize that the U.S. passport may 
not be the optimal solution for travel for communities along 
the Northern and Southern Borders for a number of reasons, 
including cost and size. We recognize further the economic 
implications this program has for industry, business, local 
governments, and the general public. Thus, in developing this 
program, we have been particularly careful to seek to expedite 
the travel of frequent travelers, especially those who reside 
in border communities.
    Based on a study undertaken for the Department of State at 
the land borders by BearingPoint Corporation, we estimate that 
approximately 23 million U.S. citizens cross the land borders 
into Canada and Mexico each year and make a total of nearly 130 
million trips. Of these land-border crossers, about one-half 
are frequent travelers, making the trip at least once a year, 
and as Elaine noted in her testimony, some 2 percent of that 
number, or roughly 450,000 people, do 48 percent of the travel.
    There is no question that extending WHTI to land-border 
crossers is a challenge. Looking at these 23 million land-
border crossers from a document perspective, only 40 percent 
report that they possess a U.S. passport or other suitable 
document. Over 8 million of them report that they would seek a 
passport in the first year, and this is understandably of 
intense interest to the Department of State.
    Here is how we plan to meet this challenge. We will first 
increase our capacity to adjudicate and produce passports and a 
new travel card. We already have more than 7,500 passport-
application acceptance centers around the United States, 
including 321 in the state of Texas. In addition, we have a 
program underway to increase our adjudication capacity for 
passports from the current level of 10.1 million we experienced 
last fiscal year to 17 million applications in 2008. I want to 
take this opportunity thank on behalf of the Department of 
State the Congress for their support in funding that expanded 
capacity.
    We also recognize, as I said earlier, that for a number of 
U.S. citizens to make regular land-border crossings and for 
families whose international travel consists solely of crossing 
the land border, a traditional book-style passport is unlikely 
to be the practical document of choice. Therefore, we are 
working with DHS to develop a travel card that could provide a 
convenient and affordable alternative for land-border crossers, 
and I have here for you, Mr. Chairman, a sample of such a 
document.
    Based on our initial thinking, this card would establish 
both a person's identity and U.S. citizenship, would fit easily 
in a person's wallet or purse, and would cost significantly 
less than a book passport. U.S. citizens who are border 
residents or frequent travelers across the land borders would 
be able to apply for the travel document at the same 7,500-plus 
facilities around the U.S. that currently accept passport 
applications. I should add in that regard that we are also 
discussing with the U.S. Postal Service expanding that total 
program by about 2,000 additional sites, approximately of which 
80 are here in the state of Texas.
    We also expect that the travel card would be valid for the 
same 10-year period for adult and 5-year period for children as 
applies to U.S. passports. We recognize that there are a host 
of issues that must be addressed thoroughly to implement the 
WHTI smoothly and successfully, including public participation 
in the regulatory process. With this in mind, we have just 
completed an Advanced Notice of Proposed Rulemaking process 
that generated over 2,000 public comments.
    A large number of these comments reflected concerns about 
the economic impact that the WHTI initiative could have in 
discouraging travel across the land borders. We believe that 
the solutions we are considering could make the crossing far 
more efficient, because all travelers will be identified by a 
limited number of highly secure identity and citizenship 
documents.
    The public, I must add, will have additional opportunities 
to review and comment upon our plans as we move into the next 
phase of our rulemaking when we issue at least one and more 
likely two Notices of Proposed Rulemaking. We are eager to 
receive and integrate practical solutions, always keeping in 
mind the ultimate goal of making our borders more secure while 
also facilitating the movement of people.
    Finally, I would be remiss in presenting this testimony if 
I did not mention a way for Congress to help the Department of 
State meet the challenges embodied in implementing Section 7209 
of the Intelligence Reform and Terrorism Prevention Act.
    As a result of record passport demand already being 
generated by IRTPA and the additional biometric measures we are 
incorporating in response to the Enhanced Border Security and 
Visa Entry Reform Act, the administration has requested 
legislative authority for the State Department to collect and 
retain a surcharge to cover the costs generated by Section 
7209. The surcharge would be used to support additional 
Department of State expenses that we will incur in order to 
meet the demand generated by WHTI.
    Once again, thank you, Mr. Chairman, for holding this 
important field hearing and inviting me to participate. At this 
time, I am prepared to answer any questions that you may have, 
and again, I apologize for my informal attire, but sometimes 
baggage goes one place and the traveler goes another. Thank you 
very much.
    [The prepared statement of Mr. Moss appears as a submission 
for the record.]
    Chairman Cornyn. Well, we are ordinarily pretty informal in 
Texas and South Texas in particular, but no problem.
    I wanted to start with you, Mr. Moss. Did I understand you 
correctly? There are approximately 43 million travelers making 
130 million trips a year?
    Mr. Moss. I must have misspoken. Excuse me, Mr. Chairman.
    Chairman Cornyn. Well, I may have misheard. That is why I 
am asking.
    Mr. Moss. It is 130 million land-border crossings by 23 
million travelers, or when you do the math, approximately five 
to five-and-a-half crossings per traveler per year.
    Chairman Cornyn. That is why I wanted to ask, because I was 
not sure if I understood that correctly. Twenty-three million 
travelers, making approximately 130 million trips. How many of 
those 23 million currently have passports?
    Mr. Moss. Based on the survey that was done for us at the 
land-border crossings by BearingPoint this summer, using a firm 
called Westat, they reported that 40 percent of the people who 
responded to their survey said that they already had either a 
passport or one of the other documents that Ms. Dezenski 
mentioned in her testimony.
    Chairman Cornyn. Okay. Forty percent.
    Mr. Moss. Correct.
    Chairman Cornyn. In any event, if that is accurate or not, 
it sounds like the State Department is going to have to really 
gear up to meet this requirement in roughly a year's time, if, 
in fact, that deadline holds. Is that correct?
    Mr. Moss. You are absolutely right, Mr. Chairman. And I 
should say in that regard we have already begun to deal with 
that demand. In fiscal year 2003, the Department of State 
issued about 7.1 million passports domestically.
    In fiscal year 2004, that number increased to 8.8 million, 
last year to 10.1 million. This year already we have seen an 
increase in demand of between 25 and 30 percent so far for this 
fiscal year. We had planned to issue and process about 12 
million passport applications this year. We actually think the 
number will be closer to 13 million, and then we have a plan 
that takes us to 15 million capacity by next year, and then a 
sustained capacity of 17 million a year, beginning in 2008. We 
believe that that will be adequate to meet the demand as we 
understand it right now.
    Chairman Cornyn. And we understand that a passport costs 
roughly $100 currently for an adult. How much would the 
passport card alternative cost?
    Mr. Moss. Well, first, Mr. Chairman, that is a very good 
question. First I should explain what the passport--how we get 
to the $100 fee. There are actually three fees that are 
involved in a passport. The first is a $30 fee, normally paid 
to the U.S. Postal Service or a county clerk of court or a city 
official who serves as an acceptance agent. That money does not 
come back to the Federal coffers.
    There is a $55 passport fee which goes to the Treasury, and 
then a $12 security surcharge fee that the Department of State 
retains to underwrite the cost of biometric improvements and 
other steps we have already taken to strengthen the U.S. 
passport.
    The price point we are aiming at is to reduce the cost by 
at least 50 percent from that $97 figure. We are working not 
only with DHS on this objective; we are making decisions within 
the Department of State as to how we allocate costs so that we 
minimize the cost we actually shift to the bearer of the travel 
card.
    And the last issue we have underway is a comprehensive 
effort with the U.S. Postal Service to reduce the execution fee 
or the acceptance agent fee so that they would have, ideally, a 
family maximum. All these steps together, we are hoping we will 
be able to reduce the fee by at least 50 percent. I am hesitant 
to give a price point right now, because we are still looking 
at technology issues, and quite honestly, I have not heard back 
from the Postal Service as to whether an idea that we have 
discussed with them is one that they can accept, but that is 
our goal.
    Chairman Cornyn. Is that the cost of actually producing the 
card, or are there some revenue-raisers embedded in this cost?
    Mr. Moss. Mr. Chairman, that is actually the cost of 
producing the card. There are really two costs we have to think 
about in this case. One is the cost of the raw card and then 
putting a person's picture on it, and that runs probably about 
$4 per card, even with an RFID technology embedded in it.
    The other and more significant cost is the cost of actually 
having a decision made that an individual is, in fact, a U.S. 
citizen and eligible for a passport, and that costs us in the 
range of roughly $20 of government personnel time, contractor 
time, and obviously expenses like rent. I should say in that 
regard we have a network of 17 facilities, including one here 
in Houston, Texas, which are able to adjudicate these things 
very quickly for travelers. We are looking at a variety of 
things to try and bring that cost down.
    I should also add that there are some costs which we 
currently shift to the passport bearer. These are costs for 
what we call citizen services abroad. Our policy decision is we 
will continue to embed those costs in the passport and not 
shift any of that cost to the travel-card bearer, to reduce the 
costs further.
    Chairman Cornyn. Well, it has become apparent, just in the 
description here, in discussing what alternative documents 
might be available, we have got a proliferation of different 
documents. I am not being critical necessarily, but I am 
wondering to myself how many different types of cards we are 
going to be dealing with, and I think ultimately Congress is 
going to have to come to terms with whether a single document 
as opposed to multiple documents will serve essentially 
multiple purposes.
    Do you have any observations about that, Ms. Dezenski?
    Ms. Dezenski. Sure. If I could elaborate a little bit more 
on the concept of the passport card and the connection to the 
programs that we have within the Department of Homeland 
Security, we have the NEXUS program which is used at the 
Northern Border, the SENTRI program at the Southern Border, and 
the FAST program which is for commercial drivers. NEXUS and 
SENTRI are very similar. They are just administered at the two 
borders respectively.
    What we are working on right now with the State Department 
is a broader architecture for these cards, so we expect, for 
example, that the passport card will be something we can issue 
in the short term. However, we know that there is technology 
available that would allow us to write registered traveler-type 
functions to that same card, so if a traveler wanted to, in 
fact, use a SENTRI lane or a NEXUS lane, they could at some 
point in the future write those types of privileges to the 
card. They would have to go through some additional security 
checks, but it would be a multi-functional type of platform. 
That is one piece of it.
    The second piece is we are looking within the Department to 
harmonize the registered traveler programs that we have and use 
a global enrollment process so it becomes a little bit easier 
to facilitate those programs, and it becomes a more harmonized 
effort.
    Chairman Cornyn. Well, I would just note that, of course, 
the US-VISIT program, I know there is a card being designed 
with the RFID technology to determine when people actually exit 
from the country, the laser visa holders, so we are talking 
about a new card there. Congress has mandated the real ID for 
state driver's licenses when it is used, of course, for Federal 
purposes. It just sounds apparent to me that Congress is going 
to have to come to grips there ought to be some economy and 
certainly some efficiency obtained by perhaps coming up with 
some sort of universal card, or as you point out, one that 
could be programmed without the holder having to visit some 
location or apply for another privilege under that card, but it 
could be used much like a toll tag, I guess, would be used.
    Let me ask you, Ms. Dezenski. According to some reports, 
the US-VISIT fingerprinting process has actually sped up 
inspection times at the port of entry for some travelers. 
Presumably, this is because there is improved technology and a 
standardized process for travelers and inspectors. Has the 
Department conducted any analysis on how the new passport 
requirement will impact inspection times?
    Ms. Dezenski. We have done some preliminary work, but we 
probably will not have a full handle on that until we have a 
final decision on what types of documents we will be accepting 
under the new requirements. I think it is fair to say that 
implementing any kind of additional check has the potential to 
add time onto processing, but our goal is to get that delta 
down as small as possible or as we have had success in the US-
VISIT entry procedures and actually reducing the facilitation 
times, that obviously would be the goal, and we get there 
through technology.
    RF technology that Frank mentioned earlier, radio 
frequency, has some capabilities that can help us with pre-
positioning data, but there are trade-offs. RF technology is in 
early stages, and we have important decisions to make about 
whether those investments are the ones we want to make now or 
whether those are things that we would incorporate in the 
future. So I think we have to work through those technological 
issues, get a better handle on the cost estimates, make the 
final decisions on the types of documents that we want, and 
then we will have a much better sense for the implications.
    Mr. Moss. Could I add--
    Chairman Cornyn. Mr. Moss, please.
    Mr. Moss [continuing]. A thought to that as well? And that 
is, Mr. Chairman, you mentioned a multiplicity of documents. I 
think it is also important to realize that currently a border 
inspector could be presented with perhaps 8,000 different types 
of birth certificates being presented by American citizens. 
There are literally multiple types of driver's licenses being 
issued by all the States around the United States. So, in fact, 
even though when we run down a list of a travel card, a SENTRI 
card, a NEXUS card, et cetera, a new generation border crossing 
card, we are actually moving towards, if you will, minimization 
of the number of such documents. We believe especially in the 
case of the travel card, that the inspectors will have 
confidence in the underlying integrity of the process that led 
to the issuance of that, and that may actually have positive 
effects on our ability to make the border work more smoothly.
    So we are trying to do a variety of things here. But we are 
also confronted with the reality right now where literally you 
can present one of 8,000 different types of birth certificates, 
and that is obviously an impossible function for the inspector 
to determine whether the one you present happens to be valid 
for that municipality or county at that date. Thank you.
    Chairman Cornyn. Well, I think we all understand the 
rationale behind a secure card that has integrity because of 
the proliferation of document fraud and counterfeiters that are 
capable of producing the most realistic-looking fraudulent 
copies of anything from a passport to a driver's license to 
other things. So, it is certainly important to have some sort 
of secure identification, and that is a staggering figure, Mr. 
Moss. I had not heard that before.
    One of the frustrations for non-U.S. citizens is that the 
inspections and standards vary from port to port. For example, 
I hear there are times when the same tourist faces different 
standards at different ports of entry. What steps is the 
Department of Homeland Security taking, Ms. Dezenski, to ensure 
consistent application of the law along the border with regard 
to ports of entry?
    Ms. Dezenski. I think we do a pretty good job of training 
our folks to implement our regulations and our rules in an 
effective fashion, and we certainly strive to do it 
consistently. There are lots of factors that go into a process 
when someone approaches a point of entry, and our inspectors 
look for different types of behavior patterns, different types 
of indicators that give us a sense for whether that person is a 
risk or not a risk or should be pulled aside for secondary or 
let by with no further issue, so it is hard for me to 
specifically say that it is going to be the same amount of 
processing time for a particular person.
    It really depends on the situation at that POE, but I can 
tell you that we do strive to ensure that our border inspectors 
have the training that they need to ensure that there is a 
consistent application of rules and regulations.
    Chairman Cornyn. Well, I would want to mention to you a 
conversation I had with former Secretary Tom Ridge in talking 
about the laser visa and the implementation of US-VISIT. We 
were successful in getting a rule changed that would increase 
the length of time a laser visa holder could come from Mexico 
into the United States from 72 hours to 30 days.
    But, Secretary Ridge told me at the time that that was done 
that the goal was to treat all of our visitors, all of our 
guests, no matter what country they come from, precisely the 
same. And, certainly I am going to hold his successor, 
Secretary Cherthoff, and the Department to that standard. I do 
not see any reason why there should be inconsistency between 
ports of entry. I do not think there should be any inconsistent 
treatment with regard to visitors depending on which country 
they come from. We ought to strive for a goal of uniform, 
courteous treatment to all of our lawful visitors in this 
country.
    Finally, let me just mention sort of just a personal 
observation. I have been struck, as I have traveled along our 
U.S.-Texas border with how much time and effort we put in to 
screening, credentialing, and burdening lawful traffic and 
commerce across the border. That is not meant to be a 
criticism, but I must say that it is a stark contrast with the 
complete unwillingness, at least until recently, of the Federal 
Government to live up to its obligations to enforce the border 
security and our immigration laws between the bridges and 
between the lawful ports of entry.
    And, I look forward to working with other members of the 
Congress and the President, to try to come up with a 
comprehensive policy that does not just burden lawful commerce 
and legitimate visitors who certainly are not going to come 
here to do us harm. Typically they are going to come here and 
spend money. They are going to stimulate the economy. They are 
going to create jobs along the border region.
    And, we simply need to narrow the gap between the uniform 
treatment and make sure that we do treat all aspects of border 
entry the same, while we need lawful means for people to enter. 
We need to know who they are, why they are here. We also need 
to deal with the vast gaps in our border security between the 
bridges, which I think are obviously the cause of a lot of 
concern to a lot of Americans, which are stimulating a lot of 
debate, important debate.
    It is ironic that the Federal Government has so long 
neglected its responsibilities along the border. Now the border 
is getting a lot of attention, and I will tell you from the 
standpoint of my constituents, not all of it is welcome. But, 
we look forward to continuing to work with the Department of 
State and the Department of Homeland Security in the discharge 
of your responsibilities. We appreciate your service to our 
country, and we appreciate your presence here today.
    I hope you will stay a while, and you will get to know a 
little bit more about this region, because it is unique. We do 
have some wonderful opportunities and some challenges, but 
nothing we cannot get through by working together. So, thank 
you very much for being here today.
    Ms. Dezenski. Thank you, Mr. Chairman.
    Mr. Moss. Thank you very much, Mr. Chairman.
    Chairman Cornyn. Could we have our second panel of 
witnesses come forward, please, and take your seat.
    [Pause.]
    Chairman Cornyn. Gentlemen, could I ask you, please, to 
stand and raise your right hand.
    [Witnesses sworn.]
    Chairman Cornyn. Thank you very much.
    We are pleased to have such a distinguished second panel 
with us today, and these are citizens from the border community 
who I think have an awful lot of personal insight and expertise 
to offer to the subject matter we are discussing today.
    Our first witness is Pete Sepulveda, Chairman of the Border 
Trade Alliance. The Border Trade Alliance represents 
individuals and businesses that conduct cross-border NAFTA 
commerce.
    Also joining us today is Dennis Nixon. Mr. Nixon is 
Chairman and CEO of the International Bank of Commerce. He 
represents the largest bank holding company in the state of 
Texas, whose corporate headquarters remains on the U.S.-Mexico 
border.
    And, finally, Guillermo Trevino joins us today. Mr. Trevino 
is board Chairman of the Laredo Chamber of Commerce and former 
Chairman of the Laredo Board of Development Manufacturing 
Association.
    I welcome you here today on behalf of the Judiciary 
Committee and particularly the Subcommittee on this important 
topic. We will be happy to hear any opening statement you would 
care to give. If you would hold it to 5 minutes or so, then we 
can get around to some Q&A, which I think may be productive as 
well. But, Mr. Sepulveda, we would be glad to hear from you 
first.

STATEMENT OF PETE SEPULVEDA, JR., CHAIR, BORDER TRADE ALLIANCE, 
                         LAREDO, TEXAS

    Mr. Sepulveda. Thank you, Chairman Cornyn. The BTA is a 
grassroots organization consisting of individuals, entities, 
and businesses which conduct legitimate cross-border business 
in the NAFTA marketplace. As such, we have a unique perspective 
on the challenges facing our land borders. We believe that as a 
nation, we can have a regulatory and enforcement environment 
that result in both increased border security and improved 
facilitation of legitimate trade and travel.
    I would like to make a couple of points, and I will begin 
with the BTA believes that there are certain alternatives to 
the passport that we must continue to accept at United States' 
ports of entry. In their Federal Register notice, the 
Departments of State and Homeland Security indicated the NEXUS 
cards, SENTRI cards, Border Crossing Cards, and FAST driver 
identification cards may be accepted i lieu of a passport.
    The BTA is adamant in its belief that these identification 
cards recognized by the Departments of Homeland Security and 
State should be deemed acceptable alternatives to a passport 
for hemispheric travel. Our recommendation in this area is 
based on the fact that holders of these documents have been 
vetted through various security check databases and that the 
documents are tamper-resistant, machine-readable, and 
technologically advanced, including such features as 
biometrics.
    SENTRI cards, which give holders access to special commuter 
lanes on the border, are not a practical alternative for all 
border residents, as these lanes in but three of over 40 ports 
of entry on the U.S.-Mexico border, although some more are on 
the way.
    Second, we urge, the Departments to conduct a feasibility 
assessment of establishing a traveler document that may be 
obtained by U.S. and Canadian citizens that confirms one's 
identity and citizenship and can be placed in one's wallet, 
providing more durability than the booklet-style passport. Some 
have referred to this as a North American Travel Document. 
Although we cannot speak to the name, we certainly agree that 
this concept should be considered as an alternative for the 
long-term implementation of this initiative.
    Third, it is imperative that this initiative be fully 
integrated with other efforts currently underway or proposed. 
The BTA believes that this new requirement has the potential to 
inflict a new burden on travelers, especially casual travelers 
across the U.S. and Canadian borders, and it could put tourist 
dollars at risk. Border region retail sales and tourism stand 
to suffer if visitors are not in possession of proper proof of 
citizenship.
    A study conducted by the University of Texas at Pan 
American cites Winter Texans' impact at an annual contribution 
of over $420 million to the area's economy in the Rio Grande 
Valley of Texas.
    The BTA is concerned that the burden of the cost of 
obtaining a passport could inflict on the working families of 
the U.S.-Mexico and U.S.-Canada borders. For example, a family 
of four living in South Texas who routinely crosses the border 
to visit family and friends in mexico may not have the means to 
secure the requisite number of passports for each member of 
their family. At $97 per passport for individuals over 16 years 
of age and $82 for individuals under 16, this rule has the 
potential create a huge financial burden for many citizens who 
live in some of our country's poorest communities.
    Fourth, making the passport the only acceptable document 
raises additional concerns, in particular the ability of the 
Department of State to issue on a timely basis the potential 
several million new passports that may be required. This 
initiative could hinder a lawful traveler's ability to leave or 
enter the United States. Although we have seen assurances by 
the Department of State to issue many more passports on an 
annual basis, we still have very clear in our memories the 
experience of the issuance of millions of laser visas for 
Mexican travelers who suffered through long waits for their 
visas.
    Fifth, we must focus on the intent of the law and not just 
on the deadline. The BTA recommends that on regular intervals 
between now and December 31, 2007, the responsible Departments 
assess their ability to meet this deadline, with the 
understanding that a final decision on the deadline be made 6 
months prior, to ensure that the Departments are fully prepared 
to implement the rule without negatively impacting the 
traveling public.
    The BTA has serious concerns about the effect this rule 
will have on casual, as well as frequent travelers, across our 
shared borders. The communities on both sides of the U.S.-
Canada and U.S.-Mexico borders are inextricably linked, both 
culturally and economically. Thus we are reluctant to support 
any program that puts our unique cross-border relationships at 
risk and therefore urge the Department of Homeland Security and 
Department of State to commit to undertaking an extensive 
outreach campaign aimed at the traveling public.
    Mr. Chairman, the BTA is committed to working with you and 
your Subcommittee to ensure that by simply focusing on a 
deadline, we are not foregoing improvements to the security of 
the homeland, to the welfare of the border region, and to the 
relationship with our two most important partners, Mexico and 
Canada.
    The BTA remains committed to supporting initiatives that 
will make our homeland more secure while making the traveling 
experience for our visitors and for U.S. citizens a better one. 
Once again, Mr. Chairman, I thank you for the opportunity to 
submit our comments for the record, and I look forward to 
working with you on this issue in the coming months.
    Chairman Cornyn. Thank you, Mr. Sepulveda. And any other 
comments you would like to make part of the record will be made 
part of the record without objection.
    Mr. Sepulveda. Thank you.
    [The prepared statement of Mr. Sepulveda appears as a 
submission for the record.]
    Chairman Cornyn. Mr. Trevino, we would be glad to hear from 
you next.

STATEMENT OF GUILLERMO TREVINO, CHAIRMAN, BOARD OF DIRECTORS OF 
         THE LAREDO CHAMBER OF COMMERCE, LAREDO, TEXAS

    Mr. Trevino. Senator Cornyn, my name is Guillermo Trevino, 
and I am Chairman of the board of directors of Laredo Chamber 
of Commerce and a member of a privately-held business with 
operations on both sides of the U.S.-Mexico border. Like most 
of the 850 active business members of the Laredo Chamber of 
Commerce, my businesses depend on the legal flow of commerce 
and visitors between Northern Mexico and the U.S.
    We have a keen interest in border policy, because border 
policy directly impacts people's lives and businesses. The 
Western Hemisphere Travel Initiative is not an abstract 
discussion for us, because the stakes are high and the effect 
could be huge on an area of the country that already faces 
stiff economic challenges. Before any policy is adopted, it 
should meet a variety of tests.
    The first should be, Do no harm. In medicine, this is 
important, because you want to make sure the cure is not worse 
than the disease. With this policy is there a better than 
average probability that the rules will make the overall 
situation worse instead of better? Chances are good that the 
WHTI will add crossing time to the entry and exit process. 
People do not dispute this. The discussion generally centers on 
how much of an increase.
    Any added time will add congestion to an already time-
consuming cross process. Anecdotally, we are already hearing 
from visitors that though they are not eliminating trips to the 
border, they are reducing the frequency because of the wait 
time. A reduction in trips means a blow to the local, state and 
national economies of the U.S. and Mexico.
    Second test: Will it achieve the policy objective of making 
the United States safer? All our representatives in Washington 
are in a tough position, because voters are demanding that they 
do something to make them feel more secure, and building walls 
and increasing requirements for legal commerce and travel 
sounds good and can be implemented, because law-abiding 
citizens will comply. But will it deter international criminals 
and terrorists any more than our current systems?
    Relying simply on this increased documentation requirement 
alone I do not believe will improve the situation. Added 
congestion means more opportunity for errors and people 
slipping by already overworked people at check points. 
Increased staffing and manpower will be necessary to ensure and 
act on information generated by the system, and we are back to 
the fundamental flaw and current problem at our borders: that 
we do not have adequate staffing and manpower at our ports of 
entry. Why implement a new process at increased expense to 
people who may have difficulty affording it when we cannot 
currently staff and administer existing processes and 
procedures?
    Third test: Is it possible and at what cost? We have a seen 
a variety of systems and plans being tested, from current bar 
code technology to biometrically triggered radio frequency 
identification devices. There is no question that some system 
can be deployed to speed things, but the current plans we have 
seen so far are cost-prohibitive and years away from real-world 
use. The danger we see is that we have a promising technology 
like some form of RFID that we are told that even Wal-Mart will 
implement soon.
    Homeland Security says that it will be ready by the date 
necessary to implement WHTI. The technology has limited success 
or is too expensive at the time of implementation, but Homeland 
Security implements the overall plan without the key promising 
technology that we are told will fix everything, and we have 
huge delays at ports of entry.
    I spoke with someone from Wal-Mart after a recent 
presentation on US-VISIT's passive RFID tests, and Wal-Mart has 
delayed their hard RFID deadlines, because they are having 
serious data integrity issues. The pushback will be, But it 
only took us X number of years to implement after we started 
the program. But over the course of those X years, commerce is 
interrupted, businesses close or suffer, and trade patterns are 
changed.
    We think about things like wait times in micro. It will 
only add 5 seconds; the passport will only cost $97. But just 
as when you multiply wait times, when you multiply the number 
of people who do not have a passport, who might cross into 
Mexico times $97, you are talking about a significant amount of 
money that will not be spent in local communities and will come 
out of already strapped budgets.
    WHTI or any documentation program cannot do the job alone 
but must be part of a comprehensive plan that also takes into 
account immigration reform, because as important an issue as 
WHTI is by itself, it is part of the overall problem of legal 
immigration. The best estimates I have seen for growth in 
Mexican GDP next year are around 3.5 percent. According to an 
economist I spoke with the other day, the Mexican economy would 
need to grow 7 percent to create enough jobs to employ everyone 
entering the workforce in any given year.
    The difference between jobs created and population growth 
will be the approximate size of the number of new workers 
entering the U.S. from Mexico, either legally or illegally, 
next year. Please check these figures with your own staff, but 
the point is extremely important. If the Mexican economy grows 
at the best possible rate next year, there will still be a huge 
number of people looking for work, no matter how many agents we 
add or fences we build.
    Curiously, the problems we face on the Southern Border are 
also what will make the United States stronger and more 
competitive in the future, because these are young workers, and 
as our population ages, we will need more and more young 
workers. By allowing and essentially encouraging huge amounts 
of illegal immigration by not finding a way to work them into 
some kind of legal framework, we weaken Mexico's ability to 
function as a normal state. How can a city or region function 
normally when large percentages of their most productive human 
capital have left? We also provide financial support to people 
involved in criminal activity, and we drive a large part of the 
U.S. and Mexican economy into the shadows, and that is not good 
for any society or government.
    So in closing, I would again like to thank the Committee 
for listening to these comments and ask that you remember to 
apply the tests I mentioned, but the most important one is, 
first, do no harm. Thank you.
    [The prepared statement of Mr. Trevino appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Trevino. You have put this 
in an important overall context. Thank you for your testimony.
    Mr. Nixon, we would be glad to hear your opening statement.

 STATEMENT OF DENNIS E. NIXON, CEO AND CHAIRMAN, INTERNATIONAL 
                BANK OF COMMERCE, LAREDO, TEXAS

    Mr. Nixon. Thank you, Senator. I will move quickly, because 
on the border, we do not ever want to get the red light.
    [Laughter.]
    Mr. Nixon. Mr. Chairman, my name is Dennis Nixon, and I am 
CEO and Chairman of International Bank of Commerce. It is the 
largest--
    Chairman Cornyn. Could I get you to pull your microphone a 
little closer to you, so everybody else can hear?
    [Pause.]
    Chairman Cornyn. Thank you very much.
    Mr. Nixon. As the largest bank holding company in the State 
of Texas whose headquarters remains on the U.S.-Mexican border, 
I can tell you that the Western Hemisphere Travel Initiative 
will have tremendous impact on our customers, the communities 
we serve, and the Texas and American economy.
    This issue has drawn attention from coast to cast, and the 
majority of the focus has been on either the type of document 
we should use or how much it will cost the average American 
family. But the real issue is getting lost in the debate. For 
Americans, crossing the Rio Grande should be no different than 
crossing the Potomac. Just like crossing the Potomac, crossing 
the Southern Border as a U.S. citizen has normally not required 
producing identification document.
    What if it took you 4 hours just to reach the Key Bridge in 
Arlington, Virginia, on your daily commute to the Capitol? And 
then upon arriving at the bridge, you had to stop, show your 
identification, and answer a bunch of questions--Where are you 
going? Where have you been--all consuming additional time.
    This debate has wrongly focused on what we are going to do 
at the bridge, when the problem is we cannot even get to the 
bridge, so it makes no difference what document you order. You 
are just going to add to the logjam to the border.
    The biggest issue with the proposed rules and the programs 
is as a country, we have become so wrapped up in specific 
procedures that we have lost sight of the big picture and those 
procedures adding value. We increase procedures without 
corresponding staffing that needs to go with it. We frustrate 
the very people who seek nothing more than to spend money in 
our country, visit families or conduct business. We are truly 
destroying the dream of NAFTA.
    Eighty-four percent of all the border crossings occur at 
land ports. Space is at a premium at these bridge crossings and 
begs these questions: How will American citizens be processed 
if they fail to produce the correct documentation? Where will 
they be processed? Where will they be detained during that 
processing? And how will this affect growing wait times already 
caused by US-VISIT? Will we require extensive exit procedures 
to ascertain that U.S. citizens have the necessary 
identification to depart and re-enter the country?
    The Department of Homeland Security will brag that US-VISIT 
program does not apply to Americans, and for others, it only 
takes 15 seconds to pass through the inspection process. Tell 
that to the last person in the queue, the American, the 
Guatemalan, the Canadian or the Australian. The fact is no 
matter who you are or what country or hemisphere you come from, 
you are commingled in the queue until you get to the bridge. 
You have a long wait.
    Texans cross the Rio Grande, as those in Virginia and 
Maryland cross the Potomac, to eat, to shop, to see a concert, 
conduct business or visit family. Our economies are intertwined 
as a result of this, and therefore, any proposed rules that 
affect how people are entering the country, specifically the 
Southern Border, are of great interest to us. Today bridge 
crossings are down in Laredo, and people are crossing less 
because of hassles of getting back into the United States. Even 
with this slow-down, wait times are up.
    As recently reported in USA Today and confirmed by GAO, 
delays at airport customs get worse; long lines and 
understaffing at Customs checkpoints continue to worsen. So if 
there is not enough staff to accommodate 16 percent of the 
border crossings, then how in the world does the Government 
expect to handle 84 percent of the crossings that enter the 
country through the land ports like Laredo? Even with this 
report on record, DHS continues to rave about the success of 
the US-VISIT. These accolades are clearly without merit.
    Back in September, we logged numerous complaints from our 
customers in Laredo and San Antonio and other markets as a 
result of the extensive wait and delays during Diez y Seis, 
Mexican Independence Day, weekend. This is an important holiday 
wherein thousands of Mexicans travel to the U.S. to vacation 
and spend huge sums of money buying goods and services in the 
United States. While many of our customers withstood long lines 
of up to 4 hours in their attempt to enter the United States, 
others attempted to cross at another bridge in Laredo only to 
discover that it closes at midnight.
    This seems to be a never-ending problem that occurs during 
peak periods and holidays. If we know when holidays are and can 
anticipate other peaks, then why cannot CBP adequately prepare 
for the high number of visitors expected during these dates? 
The ripple effect of this lack of preparation translates into 
fewer tourists and business customers coming into Laredo in 
order to avoid the long lines and delays.
    If frequent travelers pose no risk, then they should be 
allowed to cross our borders expeditiously. That way, we do not 
interrupt the flow of people and commerce unnecessarily, but 
frequent travel programs have not worked because once a drug 
seizure is made, these frequent traveler lanes become parking 
lots just like the other lanes because inspections are then 
intensified.
    For years, IBC strongly supported additional funding for 
Customs. However, today what we have witnessed is that as we 
begin losing CBP officers through retirement, transfer and 
attrition, new DHS resources are being applied to the Border 
Patrol on other enforcement duties. This means that more 
emphasis is being placed on illegal immigration or drug 
enforcement, while people and cargo that are attempting to 
enter our country legal channels suffer as a result of 
understaffing. We seem to be devoted to damaging our 
relationship with legal visitors.
    This is a major reason why we oppose the requirement to 
force U.S. citizens to use passports to re-enter the United 
States. We oppose the requirement of any document as a general 
use instrument, because we have neither the infrastructure nor 
the staffing to handle the capacity at the land ports. The 
inspection of any document held by a U.S. citizen will delay 
entry and create more problems, because inspection equals time, 
which equals delay.
    No uniform document should be required without the 
mandatory requirement to add staffing that is necessary. Again, 
we oppose any such document requirement until DHS can prove to 
Congress that DHS has the adequate staffing to oversee such a 
process. They have not proven that at the airports.
    As a country, we have become so wrapped up in the specific 
procedures, we have lost sight of the big picture. The national 
dialogue on illegal immigration has reached a fever pitch, and 
unfortunately, issues such as wait times at the bridges are 
getting lost in the shuffle.
    We have also heard a lot of people talking about 
constructing a wall on the Southern Border in the name of 
security. My question is: Is that really security? Then why are 
not we talking about building a wall on the Northern Border? 
After all, the 9/11 terrorists did not come through the 
Southern Border. They entered our country by legally crossing 
the U.S.-Canadian border.
    We need a systematic approach that includes reform of our 
immigration laws and measures that truly help security and do 
not merely provide Americans a false sense of security we have 
added more process. These feel-good procedures are destroying 
our ability to cross our borders.
    After all, with the increased procedures and without the 
corresponding staffing that needs to go with it, we frustrate 
the very people who seek nothing more than to spend money in 
our country, visit family, and conduct business, and if 
procedural, bureaucratic red tape continues to hamper the flow 
of goods, services, and visitors, then it is the American 
economy that will suffer the most, and that means the 
terrorists will have won in the name of security because we 
have lost sight of the big picture.
    We must stop imposing processes on the system in the name 
of anti-terrorism, because feel-good procedures are clogging 
the borders, killing the economy, and causing the loss of jobs. 
Thank you.
    [The prepared statement of Mr. Nixon appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Nixon. Well, you raise a 
lot of important questions about our commitment in terms of 
staffing and making sure that whatever requirements are 
ultimately posed are administered in a way that is, in the end, 
counter-productive of legal commerce.
    I noticed that the travel document requirements currently, 
under the current deadline, assuming they hold, are scheduled 
to go into effect at the end of the calendar year, in the 
middle of the busy commercial travel period when tourism is 
perhaps at a peak. Based on your experience--and I think I know 
what you might say about it, based on what you said about Diez 
y Seis--how concerned should we be about imposing any new 
travel requirement during that time of year, as opposed to some 
other alternative strategy?
    Mr. Nixon. Well, as we have talked about since we are so 
understaffed and the lines and the traffic congestion is so bad 
already, you know, adding the checking of another document 
which currently people who are U.S. citizens do not get their 
documents checked--I have crossed the border--I mean, I do not 
know--maybe thousands of times, and I have never been asked to 
produce a document that identifies myself, and so we just know 
through experience that a document inspection is going to cause 
delays.
    So, I mean, obviously the Christmas season is the busiest 
time of the year. That and Easter and some of these Mexican 
holidays would be absolutely the worst time, but any process 
that is going to add inspection of millions of more people who 
heretofore have been asked simply, Are you a citizen, and in 
many cases pass on through is going to disrupt a lot of people. 
I mean, if you have got three people in a car and suddenly you 
are fumbling around and trying to gather documents and having 
somebody swipe that document or review that document or in some 
way look at it or being the questioning process is going to add 
significant time to that process. We just do not have the staff 
in place to do that.
    Chairman Cornyn. I have heard it commented upon that one of 
the problems we have with trying to staff up Federal agents at 
the border is just our inability to train sufficient numbers 
fast enough in order to get up to speed. Currently Border 
Patrol agents, we are told in Congress that they have no more 
than a capacity to train about 1,500 a year, and under some 
proposals, including the one Senator Kyl and I have proposed, 
we will call for basically doubling the number of Federal 
agents on the border over the next 5 years, but obviously there 
is a huge challenge associated with that.
    But, it seems to me one of the other challenges--and it may 
not be as clear--is sort of the turnover in agents and perhaps 
the lack of sensitivity or awareness of some of these agents 
who may come from different places to the people and the 
customary flow and, frankly, who the frequent travelers are, 
because a lot of what a Border Patrol agents call upon is their 
judgment and intuition to determine whether a more lengthier, 
in-depth investigation ought to take place.
    What is your observation, Mr. Nixon, about the Federal 
agents that are at the border in terms of how well they are 
trained to do their job? How much variation is there in terms 
of how they treat people or travelers, and is that a real 
concern?
    Mr. Nixon. Well, I think it has always been a concern. I 
mean, we have been working with these issues for a long time, 
and I would have to say that by and large, most of the people 
that man those positions are good people. They are trying to do 
their job well, and there is no debate about that, but it is 
always a wild card situation, and there has been issues always 
over long periods of time where we have had abuse and, you 
know, management processes that change. One manager has a 
different attitude about how to do the same job as another--as 
a different manager, and so things change, and there is a 
variety.
    As it was reported early and testified early, there is no 
cookie-cutter approach to inspection and there cannot be, 
because if you take away the judgment of the inspector, then 
you have lost the ability to make those quality assessments 
that are necessary to do the job. And so it is very difficult 
to create a mandate to process people in 30 seconds or 15 
seconds. And so that is what happens a great deal, and we have 
a lot of debate over whether people should be checked so much 
in primary and so much in secondary.
    And we have had that debate since I have been involved in 
it for 25 years, and we see Customs and Immigration inspectors 
that have held people up in the primary lanes for multiple 
questioning and opening trunks and doing all kinds of 
inspection process, which we are clearly told by their 
management people they should not do that; they should refer 
those people to secondary.
    So all of those kinds of stumbling processes create delay, 
and when you have got traffic backed up for miles, adding a 
minute or 2 minutes or 3 minutes to an inspection, when you 
multiply that times 1,000 cars, it just--the numbers are just 
catastrophic in terms of the wait time. And so we have to do 
more to get the numbers up.
    We have a border that has exploded. NAFTA has been a 
tremendous success. The numbers are growing rapidly. It is--we 
are expanding at seven, but we are staffing at three, and we 
have been doing that for years, and then we are diverting 
commercial and visitation-type inspection people off into 
enforcement, and we have not really added people in the primary 
areas that we need. We have many of our bridges are not being 
fully used, and all inspection lanes many times are not being 
fully used. We have erratic behavior, depending on whether we 
are in overtime periods or not in overtime periods.
    We have got work rules that are difficult. You know, there 
is a whole laundry list of problems that we have in the 
administration of the border that need to be solved and worked 
on, not only that, including just the pure size of these 
facilities. What happens to all these people who do not hear 
the message and go across the border during this period, and 
then we do not let them back in because they do not have a 
document. We are going to keep American citizens out.
    And if you have been down to the border, where would you 
put 500 or 800 American citizens, trying to process back into 
the United States without a proper document, one of those 8,000 
birth certificates that they would not have on them? I have not 
found my birth certificate for years, so I do not know where I 
would find it. So it is very difficult for me to believe that 
any of that is going to be handled properly, especially in a 
short-term period when we know that it takes anywhere from 18 
months to 2 years to recruit, train, and deploy an agent, so 
where are we going to get that done in a 2-year time frame to 
implement this?
    Chairman Cornyn. Mr. Trevino, you touched on a critical 
issue in your testimony, and that is how comprehensive reform 
will impact border trade and security. You note in your 
testimony that when the flow of people is underground and 
outside of the law, we provide financial support to people 
involved in criminal activity. I could not agree with you more.
    By improving legal channels for workers to enter the United 
States when no U.S. worker is available, we can improve border 
security, I believe, and free up resources that could be 
dedicated to improving law enforcement. Stated another way, 
illegal immigration actually hurts legal immigration by 
diverting resources and slowing down inspections for legitimate 
travelers.
    What are your thoughts on how improved legal channels will 
benefit legitimate trade and commerce?
    Mr. Trevino. Well, first off, I was very encouraged to read 
your letter to the editor in the Laredo Morning Times the other 
day. I think it was on Thursday. It was exactly spot on. I 
mean, we need to go ahead and figure out ways to separate legal 
people or people crossing for legitimate reasons from people 
who are not. To that point, I think the majority of people 
crossing into the United States, either legally or illegally, 
want to cross for legitimate business reasons.
    And by not finding a way to accommodate that, we are 
pushing people who would normally be actively involved in the 
regular economy, guys just looking for jobs, we push them to 
areas and meeting with people who are involved in criminal 
activity. So by the nature of our own policies, we are driving 
people into the shadows and into connections and into working 
with people who are involved in crime, so it is necessary to 
figure out a way to separate out legitimate commerce, 
legitimate people crossing for legitimate reasons, and people 
who are not.
    Once we do that and we figure out a way, which is not an 
easy task--I do not envy your position in trying to figure out 
this mess of immigration. But legal immigration as opposed to 
illegal immigration, I think, is the key to everything here, 
because once you separate that out, you are right. You free up 
resources for the Border Patrol and everything else.
    The person crossing Dennis's ranch at two o'clock in the 
morning, the probability is raised that that person is a bad 
guy, instead of a person looking for a job in the United 
States. How you deal with that person changes radically, so 
what we try and do is we try and raise the probability of the 
people who are crossing for illegal reasons, and enforcement 
and how we deal with enforcement should change.
    I mean, you talked about building a wall. Dennis talked 
about building a wall. If you have 400,000, 500,000, 600,000 
people unable to get a job in Mexico and you build a wall and 
you stop it--let's say it is successful. Let's say for some 
reason we spend tens of billions of dollars. It is successful. 
Now you have 6-, 700,000 people in Mexico without a job, and 
what will that do to the stability of Mexico?
    You know, we talk about the problems we are having in Iraq. 
They pale in comparison from a national security perspective 
with an unstable Mexico, and I am not suggesting that Mexico 
will be come unstable, but that point is real. If people are 
talking about completely shutting off the Southern Border, what 
are the ramifications? It is a complicated issue, and there is 
no simple solution to it, regardless of the sound bites on 
television or in the paper. And I was very encouraged by your 
letter to the editor, because it acknowledged these facts.
    Chairman Cornyn. Thank you very much.
    Mr. Sepulveda, the Border Trade Alliance consists of both 
individuals and businesses, many of whom support increased 
border security. Your organization, therefore, I think, has an 
important perspective on this issue. Can you tell the Committee 
whether any security improvements implemented in the past have 
actually made inspection processes faster or more reliable for 
your members?
    Mr. Sepulveda. I think with any new implementation, any 
changes in law, if it comes with the resources that are 
necessary for technology, for staffing, then the chances of 
that succeeding are good. I think what we have seen in the past 
is changes that are made, and the proper or necessary resources 
have not been there to get the staffing or the technology in 
place.
    One example is the laser visas. I remember when the laser 
visa issue came up, and that was implemented, and I am speaking 
for the port of entry in Brownsville, because that is where I 
work for Cameron County. Even though individuals might have had 
the laser visa, DHS did not have or Department of State did not 
have the equipment or technology at the port of entry to be 
able to read that visa. So unless changes and implementations 
are done with the necessary funding to go with them, it is not 
going to work.
    Those days of the laser visas, a lot of people stood in 
lines for hours and hours. A lot of people waited for months 
and months to get an appointment just to get a laser visa, and 
then when they try to cross into the U.S., you know, they found 
out that, you know, the laser visa would not be used, because 
they could not read it. So I think one of the things that needs 
to happen also for any type of change to have any success is 
for the Federal Government to work hand in hand with the local 
community.
    The local community, we are there 365 days a year. We know 
what goes on every single day of the year, and if there is any 
chance for success, then the local community has to get 
involved so that it can make it work and so that it can assure 
the local community that the economy will not be implemented in 
a negative manner.
    Chairman Cornyn. I have been intrigued by the testimony we 
heard earlier with regard to the small percentage of travelers 
across the border who account for the huge number of trips. Two 
percent of the border travelers account for almost 48 percent 
of border crossings. I confess that I am mystified why we have 
not been able to come up with a good solution at the airports 
on this issue.
    I am one of those who travels probably more than the 
average individual by airplane, but seems to me that we have 
not moved quickly enough to let people perhaps sacrifice some 
of their personal privacy to have a background check and get a 
card or get certified, so that you can move across the border 
in an expedited manner.
    I would be interested in, Mr. Sepulveda, your observations 
or your opinion on how we implement a registered traveler 
program for those frequent travelers without adversely 
affecting the occasional traveler, such as the Winter Texan 
that comes down from cold places to warm places like this and 
spends a lot of money and helps the economy.
    Mr. Sepulveda. Well, I am probably going to say that the 
majority of the Winter Texans that, you know, visit or frequent 
South Texas do not have a passport, and basically what happens 
right now is, you know, as they go into Mexico and when they 
come back, a lot of times, the officer at the primary 
inspection booth will not ask for an identification, and in the 
event that they do, a driver's license is what is used right 
now as that identification or a birth certificate.
    Now, in South Texas we also have the same situation with 
spring-breakers. During the month of February and March, we get 
spring-breakers who go to South Padre Island, and I can tell 
you during Texas week, daily we get about 25,000 students that 
cross from Brownsville into Matamoros, and obviously those 
25,000 come back into the United States. So I think it needs to 
be--those type of issues and situations need to be treated 
differently.
    Obviously Winter Texans, spring-breakers, and other 
visitors from throughout the U.S. are not going to have a 
passport, are not going to have a border-crossing card, are not 
going to have a SENTRI card or a FAST card, so I think we need 
to find a national card that is going to have the information 
that is required to prove citizenship.
    Now, the BTA has not taken a position on the use of a 
driver's license or a birth certificate for proof of 
citizenship. We are open to the discussion, but we also 
understand that there are some issues in that, because, you 
know, we have got 50 states. That means that there is 50 
different type of documents and driver's licenses that would be 
used to prove citizenship.
    So I think as far as the BTA is concerned, a lot of our 
sponsors are from the border area. We want to be able to have a 
seat at the table when these discussions are being taken place. 
When discussions of implementations are taking place, we want 
to be there so that we can provide our input and ensure that 
our economy along the border is not going to be negatively 
impacted by this change in law.
    Mr. Nixon. Senator, could I comment on that issue?
    Chairman Cornyn. Yes, Mr. Nixon, please.
    Mr. Nixon. One of the disappointments in the FAST lane 
process in the Southern Border has been that most of the 
bridges, you cannot access them. Once the traffic builds up for 
any kind of activity level, then you get into--
    Chairman Cornyn. You cannot access the FAST lane?
    Mr. Nixon. You cannot access the bridge, and so you really 
do not gain anything by having this process, then we have found 
over time that--I know that there has been several areas where 
FAST processing has been tried, but as soon as somebody in the 
underworld determines that that is an easy way to get across, 
that they get into that process, and they may have a drug 
interdiction, and then they revert to intensified inspections 
again to avoid using it as a drug lane.
    So this whole infrastructure problem that I talked about 
earlier is a real problem unless we have the ability to really 
segregate people. You know, at the airport, it is reasonably 
simple, because when you get off an airplane, you know, and you 
have all the different queues and you can go to different 
areas. The problem that we have at the border, land borders, 
especially coming out of Mexico, is that you normally enter 
those areas in very restricted areas, and the traffic builds 
up, and to try to break into one of those lanes, you give up 
your life.
    And so to get to a point where you can even enter a FAST 
lane, you may have to wait an hour, so you really diminish the 
capability of doing that, plus then you get into the process of 
if you have a drug interdiction, that may stop or slow down 
that lane for a long period of time, because there is 
intensified inspections that go on, trying to prevent that from 
occurring. So it all just continues to domino into delay, 
delay, delay, so there needs to be a massive review of the 
infrastructure and the personnel on the borders before we go 
put more process into an already dysfunctional system.
    Chairman Cornyn. Well, gentlemen, thank you for your 
testimony today. It has been enormously helpful to me 
personally and I know to the other members of the Subcommittee 
and the Judiciary Committee. We certainly have our work cut out 
for us.
    We are going to be undertaking the whole issue of border 
security and comprehensive immigration reform in the January 
and February time frame in the United States Senate. These 
issues that we are talking about here today, as complex and as 
difficult as they are, probably pale in complexity to those 
issues, but they are all important. And, of course, we want to 
make sure that Americans are safe. We want to make sure, 
though, that we do not kill the goose that laid the golden egg, 
and the economy which has created opportunity and prosperity 
for this region and for the entire border region is, we know, 
so dependent on that lawful commerce and traffic across the 
border.
    So, you have my assurance that I will continue to work 
closely with you and the leadership here in this community and 
across the border, to try to make sure that we strike the right 
balance. I am sure that we will not get it right every time, 
but we sure will try our very best to work with you to make 
sure your voices are heard. I am confident that in the process, 
we can effect public policy and the procedures in a way that 
will ameliorate some of the potential harm that I know you are 
concerned about, and I certainly am concerned about. But, we 
certainly have our work cut out for us.
    Thank you very much for your testimony. We will leave the 
record open until 5 p.m., next Friday, December 9, for members 
of the Subcommittee to submit additional documents for the 
record and to ask any questions in writing of any of the 
panelists. I might warn you that there may be some senators who 
were not able to be here today who will have some questions in 
writing for you, so if you will keep an eye out for those and 
respond on a prompt basis, it would help us as part of our work 
going forward.
    With that, this hearing is adjourned.
    [Whereupon, at 3:13 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T5936.001
    
    [GRAPHIC] [TIFF OMITTED] T5936.002
    
    [GRAPHIC] [TIFF OMITTED] T5936.003
    
    [GRAPHIC] [TIFF OMITTED] T5936.004
    
    [GRAPHIC] [TIFF OMITTED] T5936.005
    
    [GRAPHIC] [TIFF OMITTED] T5936.006
    
    [GRAPHIC] [TIFF OMITTED] T5936.007
    
    [GRAPHIC] [TIFF OMITTED] T5936.008
    
    [GRAPHIC] [TIFF OMITTED] T5936.009
    
    [GRAPHIC] [TIFF OMITTED] T5936.010
    
    [GRAPHIC] [TIFF OMITTED] T5936.011
    
    [GRAPHIC] [TIFF OMITTED] T5936.012
    
    [GRAPHIC] [TIFF OMITTED] T5936.013
    
    [GRAPHIC] [TIFF OMITTED] T5936.014
    
    [GRAPHIC] [TIFF OMITTED] T5936.015
    
    [GRAPHIC] [TIFF OMITTED] T5936.016
    
    [GRAPHIC] [TIFF OMITTED] T5936.017
    
    [GRAPHIC] [TIFF OMITTED] T5936.018
    
    [GRAPHIC] [TIFF OMITTED] T5936.019
    
    [GRAPHIC] [TIFF OMITTED] T5936.020
    
    [GRAPHIC] [TIFF OMITTED] T5936.021
    
    [GRAPHIC] [TIFF OMITTED] T5936.022
    
    [GRAPHIC] [TIFF OMITTED] T5936.023
    
    [GRAPHIC] [TIFF OMITTED] T5936.024
    
    [GRAPHIC] [TIFF OMITTED] T5936.025
    
    [GRAPHIC] [TIFF OMITTED] T5936.026
    
    [GRAPHIC] [TIFF OMITTED] T5936.027
    
    [GRAPHIC] [TIFF OMITTED] T5936.028
    
    [GRAPHIC] [TIFF OMITTED] T5936.029
    
    [GRAPHIC] [TIFF OMITTED] T5936.030
    
    [GRAPHIC] [TIFF OMITTED] T5936.031
    
    [GRAPHIC] [TIFF OMITTED] T5936.032
    
    [GRAPHIC] [TIFF OMITTED] T5936.033
    
    [GRAPHIC] [TIFF OMITTED] T5936.034
    
    [GRAPHIC] [TIFF OMITTED] T5936.035
    
    [GRAPHIC] [TIFF OMITTED] T5936.036
    
    [GRAPHIC] [TIFF OMITTED] T5936.037
    
    [GRAPHIC] [TIFF OMITTED] T5936.038
    
    [GRAPHIC] [TIFF OMITTED] T5936.039
    
    [GRAPHIC] [TIFF OMITTED] T5936.040
    
    [GRAPHIC] [TIFF OMITTED] T5936.041
    
    [GRAPHIC] [TIFF OMITTED] T5936.042
    
    [GRAPHIC] [TIFF OMITTED] T5936.043
    
    [GRAPHIC] [TIFF OMITTED] T5936.044
    
    [GRAPHIC] [TIFF OMITTED] T5936.045
    
    [GRAPHIC] [TIFF OMITTED] T5936.046
    
    [GRAPHIC] [TIFF OMITTED] T5936.047
    
    [GRAPHIC] [TIFF OMITTED] T5936.048
    
    [GRAPHIC] [TIFF OMITTED] T5936.049
    
    [GRAPHIC] [TIFF OMITTED] T5936.050
    
    [GRAPHIC] [TIFF OMITTED] T5936.051
    
    [GRAPHIC] [TIFF OMITTED] T5936.052
    
    [GRAPHIC] [TIFF OMITTED] T5936.053
    
                                 <all>

</pre></body></html>
